HHS/OIG-Audit--"Review of the Annual Reporting Process for Investigational New Drugs Regulated by the Food and Drug Adminstration's Center for Biologics Evaluation and Research, (A-15-96-50001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Annual Reporting Process for Investigational New Drugs
Regulated by the Food and Drug Administration's Center for Biologics Evaluation
and Research," (A-15-96-50001)
July 17, 1998
Complete Text of Report is available in PDF format
(515 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Sponsors investigating new drugs and testing such drugs on human subjects are
required to report annually to the Food and Drug Administration (FDA) summarizing
the progress of the investigation during the prior year. Among other things,
the report is to include information on the number of subjects who enrolled,
dropped out, or died, summaries of adverse experiences, safety reports, significant
manufacturing or microbiological changes, and plans for the coming year. Our
final audit report points out that the FDA has been lax in enforcing this annual
reporting requirement. As of July 1, 1997, outstanding reports totaled 267,
some of which were overdue by more than 10 years. As such, the FDA is missing
opportunities to obtain access to critical information essential to monitoring
patient safety and the opportunity to tabulate valuable summary data necessary
to identify patterns and trends. Since our review began the FDA has taken action
to reduce the number of overdue reports. Additional improvements are needed,
however. The FDA generally concurred with our recommendations regarding actions
the FDA can take to significantly improve oversight of this area.